U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          OFFICE OF THE SECRETARY

Information Security in Information Technology
               Service Contracts Is Improving,
             But Additional Efforts Are Needed

  Final Inspection Report No. OSE-16513/September 2004




                           PUBLIC
                           RELEASE



                            Office of Systems Evaluation

                                            --   -- - --   - -m   -- -- - -   -   - - --   -   -­





                                                           r{(~

                                                           *                           *

                                                                                                     UNITED STATES DEPARlMENT
                                                                                                     The Inspector General
                                                                                                                                         OF COMMERCI
                                                           'i


                                                            ~~cf 
                I                  Washington, D.C. 20230



                                                                                                           SEP 2 9 2004

MEMORANDUM 'FOR:                       Otto Wolff
                                     - Chief Financial Officer and

                                         Assistant Secretary for Administration

                                      Thomas N. Pyke, Jr.
                                      Chief Information Officer


FROM:
                                                                                                           ,              .
SUBJECT:
                                     Is Improving, ut A itiona! Efforts Are Needed
                                     Final Inspecti n   ort-No.OSE-16513


In September 2003, we reported the results of our independent evaluation of the Department of
Commerce's information security program and practices for unclassified systems, as required by
the Federal Information Secmity Management Act (FISMA).l As part of our evaluation, and in
accordance with guidance provided by the Office of Management and Budget (OMB),z we
assessed the Department's progress in ensuring that information security is being adequately
addressed in information teclmology (IT) service contracts in light of our May 2002 report on the
weaknesses we identified in a sample of 40 such contracts.3

As you will recall, we found that most of the 40 contracts had either insufficient security
provisions or none at all. We concluded that federal and departmental policy and guidance for
incorporating such provisions were lacking and made recommendations for addressing this area.4
The following table provides a summary of the recommendations presented in the May 2002
report and the status of the actions taken to address them as reported by the Department.




1 U.S. Department of Commerce Office of Inspector General, September 2003. Independent Evaluation of the
Department of Commerce's Information Security Program Under the Federal Information Security Management
Act, OSE-16146. Washington, D.C.: Department of Commerce DIG.-                        '
2 Memorandum for Heads Of Executive Departments and Agencies, Joshua B. Bolten, Director, Office of
Management and Budget, "Reporting Instructions for the Federal Information Security Management Act and
Updated Guidance on Quarterly IT Security," August 6, 2003.                        ­
3 U.S. Department of Commerce Office of Inspector General, May 2002~ Information Security Requirements Need
to Be Included in the Department's Information TechnologyService Contracts, OSE-14788. Washington, D.C.:


4   A summary of our recommendations and their status is attached..
DeparlmeDtofCommerceOIG
                       -

                                                 -'
                                                                                                                    ,
                                                                                                                              ~~
                                                                                                                              ~
                                                                                                                              ~~.I
                                                                                                                                  -- '




                                                                                                                                         ~OFCOMM£llO>
                                                                                                                                                        ~
u.s. Department of Commerce                                                       Final Inspection Report OSE-16513
O(fice Of Inspector General                                                                          September 2004

SUMMARY         OF OIG RECOMMENDATIONS               AND STATUS OF DEPARTMENTAL                              ACTIONS


           RECOMMENDATION                                               ACTIONS TAKEN

                                                                 (As Reported By The Department)


 1. The Procurement Executive, with the Chief
     a.	 Procurement memorandum (PM) issued on 09/13/00
 Information Officer (CIO), should develop
            reemphasized importance of security. PM provided
 and disseminate a comprehensive policy for
           list of resources to assist contract staff.
 acquisitions ofIT systems and services.
          b.	 CIO issued IT Security Program and Policy. This
                                                       policy was added to the resource list identified in the
                                                       PM.

2. The Procurement Executive, with the CIO
        a.	 In 06/03, draft provisions were provided to the
and advice of the Office of General Counsel
           Commerce acquisition community, OCIO, OGC, and
(OGe), should establish standard contract              OIG for comment, and a meeting was held to resolve
provisions for safeguarding the security of            issues.
unclassified systems and information and           b.	 Clauses were issued in final 11/17/03. Clauses
include such provisions in solicitations and
          became mandatory for new solicitations and
contracts for IT services.
                            contracts for services on 01/01/04. Existing service
                                                       contracts were to be modified as appropriate by
                                                       03/01/04.

3. The Procurement Executive, with program
        a.	     The Office of Acquisition Management (OAM)
officials and OGC advice, should instruct all
            completed an assessment, and a list of contract
heads of contracting offices to review current
           actions needing modification to incorporate new
solicitations and contract actions to determine
          security causes was generated for each contracting
whether modification is needed to include
                office within the Department. This list was
security provisions.
                                     forwarded for action by the contracting offices at the
                                                          end of 01/04.

4. The Procurement Executive, with the CIO
        a.	 All Department and contract employees completed
and program officials, should ensure that
             basic security awareness training.
contracting officers, contracting officer's
       b.	 Content of job-specific security training module for
technical representatives (COTRs), and other
          acquisition staff (including COTR) finalized in
                                                                                                -
procurement personnel have job-specific
               08/03. Implementation is pending.
information security training.


5. The Procurement Executive, with the CIO
         a.	       Procurement memorandum issued on 09/13/00

and program officials, should ensure that
                    reemphasized the importance of security. PM

contracting officers, IT staff, and program
                  provided list of resources to assist contract staff,
officials are aware of and use NIST Special
                  which includes NIST Special Publication 800-4.
Publication 800-4, "Computer Security

Considerations in Federal Procurements"

(Note: As of October 2003, NIST Special

Publication 800-64 ,"Security Considerations

in the Information System Development Life

Cycle, " has superceded NIST Special

Publication 800-4)





                                                         2

u.s. Department of Commerce                                                      Final Inspection Report OSE-16513
Office Of Inspector General                                                                         SeDtember 2004


To assess the Department's progress in fiscal year 2003, we reviewed its new security policy and
a sample ofIT service contract actions issued as of October 1, 2002. The findings from this
review were summarized in our September 2003 FISMA report. We found that the Department's
newly issued information security policy contains appropriate requirements for contractors and
other government agencies that support Commerce. The Department also drafted standard
contract provisions for safeguarding the security of sensitive but unclassified systems and
information, which require, among other things, a certification and accreditation package.5,6 for
contracted IT resources/services that involve connection to Commerce networks or storage of
Commerce data on contractor-owned systems.7 However, while most of the contract actions we
reviewed contained some security coverage, adequate provisions for controlling access to
departmental systems and networks were still missing. We also found little coordination among
the contracting, technical, and security staff responsible for developing contract-specific security
requirements and minimal oversight of individual contractor compliance with security
requirements.

Although our findings were presented in our September 2003 FISMA report, we did not make
recommendations. This memorandum report provides additional discussion of these findings as
well as recommendations to further ensure that information and information systems are
adequately secure when contractor-provided services are used.

Discussion of Department's Response to the Draft Report

In a July 12,2004 memorandum, the Chief Financial Officer and Assistant Secretary for
Administration agreed with our three recommendations and described corrective actions that are
planned or under way. His subsequent September 28,2004, memorandum provided additional
information on the corrective actions. We concur with the actions described, which are
summarized below. The complete response is included as an attachment to this report.

In response to our first recommendation to review a sample of current IT service contracts to
determine whether they have been modified where necessary to incorporate appropriate security
provisions, the response states that the Procurement Executive will ask each Department
contracting office to detail the status of efforts to incorporate security provisions into current
contracts and require offices that have not completed the effort to set milestones for doing so.
The response also states that the Procurement Executive's staff is currently working with the
Department's CIO Office to incorporate a review of service contracts in the FY 2004 IT security
compliance review program. It indicates that a random sample of contracts will be reviewed to
determine whether or not contracting offices have modified applicable contracts to include the
mandatory IT security contract clauses.


5Certification is the formal testing of the security safeguards implemented in a computer system to determine
whether they meet applicable requirements and specifications. Accreditation is the formal authorization by
management for system operation, including an explicit acceptance of residual risk.
6Documentation required in the certification and accreditation package includes a system security plan, other system
information (e.g., risk assessment, contingency plans, information on security training, security roles and
responsibilities, and system documentation), and certification documentation (i.e., test plan and test results) and the
certifier's recommendation
7 At the time of our fiscal year 2003 FISMA report, the contract provision was under departmental review. It was
finalized in November 2003.



                                                           3
u.s. Department of Commerce                                        Final Inspection Report OS£-16513
Office Of Insoector General                                                           September 2004



Our second recommendation is to implement procedures to strengthen communication between
the contracting officer, COTRs, and information security staff. The response states that the
Procurement Executive will work with the CIa's office and program officials to strengthen
communication and put controls in place that use existing contract management, review, and
compliance processes to ensure that IT security is considered during the pre-solicitation, award,
and post award phases of the acquisition process. It also indicates that the Procurement
Executive's staff will issue guidance on IT security contract requirements throughout the various
phases of the acquisition process and incorporate training on these requirements into the
CO/COTR IT security training module that is currently being developed.

Our third recommendation is to establish procedures and accountability for reviews of contractor
compliance with security procedures and controls. The response states that the Procurement
Executive, CIa, and OGC staffs will work together to ensure adequate reviews are incorporated
into existing contract review processes and coordinated among the CO, COTR, system owner,
and information security staff; and that the Procurement Executive staff will issue guidance
regarding these reviews.

We appreciate the cooperation and courtesies extended to us by the Office of Acquisition
Management, the Office of the ChiefInformation Officer, and the contracting offices at the
bureaus we reviewed.

BACKGROUND

The Department continues to rely heavily on contractors to provide IT services. In fiscal year
2003, $350 million of the nearly $535 million Commerce spent on IT contracts went to
contractors for services, such as software development, installation, configuration, testing,
operations, and maintenance, as well as website development and management.

Federal regulations and departmental guidance require that individuals, including contractors,
who have access to information systems follow established security rules and be held
accountable for safeguarding systems and data. To hold contractors accountable, contract
solicitations and award documents should include appropriate security provisions. In addition,
appropriate contract administration procedures such as performance measurement and on site
inspections should be in place to ensure that contractors are using appropriate methods for
safeguarding the Department's sensitive information systems and data. Compliance reviews
should be consistent with agency policies for testing and evaluating information security policies
and controls.




                                                 4

U.S. Department of Commerce                                                  Final Inspection Report OSE-16513
Office Of Inspector General                                                                     September 2004



OBJECTIVES,         SCOPE, AND METHODOLOGY

Our purpose was to expand upon our 2003 FISMA findings and provide additional
recommendations based on our follow- up review of the Department's progress in implementing
the recommendations in our May 2002 report. As part of this process, we reviewed current
departmental and acquisition policies, and examined a sample of 24 contract actions awarded
from October 1, 2002, through July 31, 2003, by a cross-section of departmental units. 8 We
reviewed contract documentation to determine whether adequate security provisions were
included and if so, whether contractors were complying with the requirements. Our scope was
limited to contracts dealing with sensitive but unclassified systems and information.

The Department Needs to Ensure that IT Service Contracts                   Contain the New Security
Clauses and that Appropriate Contract Oversight Occurs

The Department has made significant progress in implementing our previous recommendations.
A new information security program policy was issued in January 2003, which states that IT
security officers, systems owners,9 and COTRs must work together to ensure that information
security is adequately addressed throughout the acquisition process. It also states that contracts
must include language requiring contractors and subcontractors to give the Department access to
facilities, operations, documentation, databases, and personnel used in performing the contract,
for the purpose of ensuring contractor compliance in safeguarding government information and
systems. In an April 2003 policy memorandum, the Office of Acquisition Management (OAM)
reemphasized the importance of considering IT security in acquisitions, and recommended the
new information security policy be used as an additional resource in addressing IT security
issues. According to the Department, all employees have completed security awareness training,
and the content of an IT security training module for the acquisition community (including
COTRs) has been approved, and implementation is pending.

Additionally, OAM, with the assistance of the Department CIO's office and program officials,
drafted two comprehensive standard contract clauses for safeguarding unclassified systems and
information. These are to be included in all solicitations and contracts for services that involve
IT or require contractor access to information systems and/or data. The first-Commerce
Acquisition Regulation (CAR) 1352.239-73, Security Requirement for Information Technology
Services-requires    contractors (and subcontractors) and their employees to adhere to specific
information security policy, and holds them to the standards of accountability for sensitive
federal information systems and data that apply to federal employees. When contractor-owned
systems are to be interconnected with a departmental system or process and/or store government
data, the clause requires the contractor to provide, implement, and maintain an IT security plan,
and submit a system certification and accreditation package. The second clause-CAR
1352.239-74, Security Processing Requirements for Contractors/Subcontractors Personnel for
Accessing DOC Information Technology Systems-requires any contractor personnel needing

6 The Department's Office of the Secretary, the National Oceanic and Atmospheric Administration, the National
Institute of Standards and Technology, the Bureau of the Census, and the U.S. Patent and Trademark Office
7 The Department's information security policy defines a system owner as a project manager with day-to-day
management and operational control over the system and direct oversight of the system/network administrators and
operations staff.



                                                        5
U.S. Department of Commerce                                        Final Inspection Report OSE-16513
Office Of Inspector General                                                            September 2004

access to departmental systems (1) be appropriately screened according to the risk level of the
work being performed, and (2) complete security awareness training. This clause also requires
inclusion of CAR 1352.209-72, Restrictions Against Disclosures, an existing clause that requires
contractors to agree to keep government furnished information in the strictest confidence and to
restrict access to such information on a need-to-know basis. The two new clauses were finalized
in November 2003 and became mandatory for all new solicitations and contracts for services on
January 1, 2004. Existing contracts were to be modified to include the clauses, as appropriate,
by March 1,2004.

Review of Contracts    Needed to Ensure Appropriate      Inclusion of New Clauses

Though the standard clauses had not been finalized at the time of our FY 2003 FISMA review,
the Department's information security policy and acquisition guidance emphasized the need for
IT security provisions in contracts. Most contract actions we assessed for the FY 2003 review
contained at least minimal provisions, primarily related to personnel security, i.e., requirements
for risk and suitability assessments and background clearances for contractors working in
government facilities; some included requirements for contractors to attend security awareness
training and follow departmental and/or bureau information security procedures. However, only
2 of the 24 contracts we reviewed contained comprehensive security provisions like those that
were being developed by the Department, which require contractors to adhere to specific IT
security policy and to be accountable for federal information and information systems.

When the standard contract provisions for safeguarding unclassified systems and information
became mandatory, OAM provided a list of current contract actions to heads of contracting
offices (HCOs) and asked them to review the list, determine which actions might need the new
clauses, modify them accordingly by March 1, 2004, and notify the Department's Procurement
Executive if the deadline could not be met. These are important steps. However, to ensure the
Department's sensitive information and information systems are protected, OAM now needs to
take the additional step of periodic reviewing a sample of contracts in each operating unit to
confirm inclusion of the appropriate security provisions.

Contractors'   Compliance     With Information   Security Provisions Needs Oversight

We found little evidence of appropriate review of contractor compliance with security
requirements. FISMA requires that controls be in place to protectthe government's information
and information systems and that these controls be periodically tested and evaluated. OMB's
reporting instructions to agencies and inspectors general ask whether appropriate methods have
been used to ensure that contractor-provided services comply with security guidelines. The
Department's information security policy requires that contractors adhere to the Department's
established security policies when working with Commerce IT systems and data, and as
previously stated, that contracts contain provisions allowing access for the purpose of IT
inspection, investigation, and audit.

The Department's fiscal year 2003 FISMA report indicated that appropriate methods were used
to ensure that contractor-provided services comply with security guidelines, but cited only one
specific compliance mechanism-an automated notification system informing COTRs of



                                                 6

U.s. Department of Commerce                                         Final Inspection Report OSE-16513
Office Of Insvector General                                                            September 2004

contractors who fail to complete security awareness refresher training within the required time
frame. Contracting staff we spoke with were not aware of any compliance inspections of
contractors' facilities or operations, nor was there any evidence in the contract files to indicate
such reviews had been performed. These inspections are not solely the responsibility of the
contracting office; there needs to be coordination among COTRs, departmental systems owners
(or cognizant program officials), and security officials to determine and implement an
appropriate review strategy.

Conclusion

With the contract clauses finalized and their use mandated, the Department has a solid
foundation for improving security in its IT service contracts. The clauses are comprehensive
enough to ensure that contractors and their employees are aware of their duties and
responsibilities for adequately safeguarding sensitive data and systems. Contracting officers,
COTRs, systems owners, and IT security staff must work together to include any additional
requirements specific to the systems and data being accessed by contractor employees, and
continue to monitor and identify any security issues throughout the life cycle of the contract.
The implementation of the IT security training for COs and COTRs will also foster awareness.

Contracting, technical, and program personnel, as well as IT security staff have a significant
management and oversight role in ensuring that adequate controls are in place and contractors
are adhering to the appropriate information security policies. The Department needs to
strengthen communication among these personnel in ways that will foster consistent integration
of adequate security in IT service contracts.

Mechanisms for strengthening this communication could include (1) requiring the IT security
staff to sign off on the procurement request; (2) having IT security staff and the COTR complete
an information security checklist in the preaward phase for inclusion in the contract file so that
information security is considered during requirements definition and solicitation; and (3)
throughout the contract's performance period, holding regularly scheduled information security
status meetings among the contracting officer, COTR, system owner, and information security
staff to discuss contractor performance.

Moreover, to ensure contractor compliance with security procedures and controls, the
Department's Procurement Executive, with assistance from the CIO, needs to establish
procedures and assign accountability for conducting reviews of service contracts, in accordance
with FISMA, OMB policy, NIST guidance, and the Department's information security policy, to
ensure that contractors are complying with security procedures and controls. Criteria should be
established, including the scope, nature and frequency of the reviews. These reviews should be
coordinated among the contracting officer the COTR, the system owner, and the information
security staff, with documentation of the review included in the contract file.




                                                 7

                                                                  Final Inspection Report OSE-I65I3
 RECOMMENDATIONS                                                                     SeDtemher 2004




 The CbiefFinancialOfficerand AssistantSecretaryforAdministrarionshouldtake the necessary
 stepsto ensurethattheDepartment's Procurement Executive, with the CIO's assistance, does the
fOllowing:

1.	 Reviews a sample of current contracts to determine whether appropriate security provisions
    have been incorporated.

2.	 Implements procedures to strengthen communication between the contracting officer,
    COTRs, and information security staff.

3.	 Establishes procedures and assigns accountability to the CO and COTR, as appropriate, to
    conduct reviews of service contracts, in accordance with FISMA, OMB policy, NIST

    guidance, and the Department's information security policy, that will ensure contractor

    compliance with security procedures and controls.


       a.	 Criteria should be established, including the scope, nature and frequency of the
           reVIews.
       b.	 These reviews should be coordinated among the contracting officer, the COTR, the
           system owner, and the information security staff.
       c.	 Documentation of the review should be included in the contract file.



Attachment

 cc: Michael S. Sade, Director for Acquisition Management and Procurement Executive,
        U.S. Department of Commerce
     Karen Hogan, Deputy ChiefInformation Officer, U.S. Department of Commerce
     William Lay, Director, IT Security, Infrastructure, and Technology, U.S. Department of
        Commerce




                                                   8

                                                                         ATTACHMENT

'V	
                                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                                        Chief Financial Officer
                                        "    ~
                                        '-,).zv
                                            .l'7-4TES
                                                             ,l:~
                                                        r;tf ~
                                                                        Assistant  Secretary for Administration
                                                                        Washington.D.C.20230

                                                                    'JUl 1 2 2004



      MEMORANDUM FOR:	              Judith J. Gordon
                                    Assistant Inspector Gc eI}I for Systems Evaluation
                                      Office of Ins    or ~ nlm.l
                                                                    .
      FROM:	                        Otto J. Wolff

                                    ChiefFinanci I ffict

                                      Assistant Secretary
                                                                 D
      SUBJECT:	                    Information Security in Information Technology Service
                                   Contracts is Improving, but Additional Efforts are Needed-
                                   Draft Inspection Report No. OSE-l6513

      This memorandum provides	 our response to the findings and recommendations in your
      draft report, on information security in the Department of Commerce's infonnation
      technology service contracts.

      In general, we agree with the findings and conclusions found in the subject draft report.
      We will continue to work on the specific details (milestones, implementation plans, etc.)
      to address those concerns and specific recommendations set forth in the draft report, as
      wen as the final report. Our comments address each of the three recommendations m~de
      in the draft report.

      Recommendation #1 - Review a sample of current contracts to determine whether,
      appropriate security provisions have been incorporated.

      We agree with the recommendation that the Department's Procurement Executive should
      determine whether appropriate security provisions have been incorporated into current
      contracts as required by Procurement Memoranduin 2003-09, Information Technology
      Security Clauses, issued November 17, 2003. To accomplish this, the Department's
      Procurement Executive staff will request the status of incorporation of the required
      clauses in applicable contracts from each Department contracting office. In those
      instances where the clauses have not been incorporated, the Procurement Executive will
      require that the contracting office provide established milestones for incorporation.
      Procurement Executive staff will monitor to ensure the established milestones for
      incorporation are met. The request for status is anticipated to be completed by July 31,
      2004.
Recommendation #2 - Implement procedures to strengthen communication            between
the contracting officer, COTRs, and information security staff.

We agree that communication between the contracting officer, Contracting Officer
Technical Representatives (COTR), and infonnation security staff should continue to be
strengthened. The Procurement Executive strongly supports communication and
partnership within the acquisition community (Contract Specialists, Contracting Officers
and Contracting Officer Technical Representatives (COTR)/Contracting Officer
Representatives (COR)), with stakeholders such as the Office ofChiefInfonnation
Officer (OCIO), Office of Inspector General (OIG), Office of General Counsel (OGC), as
well as with program officials. The recently issued Commerce Acquisition Manual
(CAM) Chapter 1301.670, Contracting Officer Representative Certification Policy,
emphasizes the importance of communication by stating that the purpose of the program
is to ".. .create a results oriented acquisition workforce focused on partnering,
performance, quality, and accountability that ensures entrusted resources are used and
managed wisely throughout all phases of the acquisition lifecyc1e." The COR Program
incorporates the development of skill based competencies such as General Management
Knowledge and Perfonnance, and Procurement Knowledge and Perfoirnance. The
development ofthe competencies include the demonstration of skills such as the ability to
partner, communicate and team, as well as an understanding and application ofthe
COTRICORs role in the procurement process, and how the CO and COTRICOR must
work together with their stakeholders throughout the acquisition life cycle to ensure
success. The Procurement Executive will continue to foster communication and
partnering beginning at the highest levels within the Department and will continue to
develop acquisition policies that incorporate the concepts ofteaming, partnership and
communication.

Recommendation #3 - Establish procedures and assign accountability to the CO
and COTR, as appropriate, to conduct reviews of service contracts, in accordance
with FISMA, OMB policy, NIST guidance, and the Department's information
security policy, that will ensure contractor compliance with security procedures and
controls.

We concur with the recommendation. The Department's Procurement Executive, in
coordination with the OCIO and program officials, will work to ensure that adequate
reviews are performed at the appropriate levels in accordance with the Federal
Information Security Management Act (FISMA), Office of Management and Budget
(OMB) policy, National Institute of Standards and Technology (NIST) guidance and the
Department's infonnation security policy to ensure contractor compliance with security
procedures and controls. Procurement Executive staff will collaborate with the OCIO
and OGC to ensure that adequate reviews are incorporated into the existing contract
review process and that the reviews are coordinated among the CO, COTRJCOR, the
system owner and the information security staff. The Procurement Executive staffwill
ensure that guidance is issued to ensure proper documentation of such reviews is included
in the contract file. The Procurement Executive will issue guidance that reinforces the
existing requirement of the CO andCOTR to monitor contract performance. The
guidance will require that COs and COTRs ensure that contractor compliance with
security procedures and controls are incorporated into already existing performance
management processes. The Procurement Executive staffwill also collaborate with the
OCIO to evaluate the possibility of integrating contract reviews into the information
security annual Compliance Review Program. The issuance of guidance by the
Procurement Executive is anticipated to be completed by
September 30, 2004.

We appreciate the opportunity to comment on the draft report, and we look forward to
receiving a copy of the final report. If you have questions or would like to discuss the
responses in this memorandum, please contact Michael S. Sade at (202) 482-4248.
                                         t,+~       01' Co.­
                                    l'          ~              ~
                                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                   f!I          ~              "b
                                   *                               .
                                                                 1ft
                                                                       Chief Financial Officer and
                                    'i,
                                    ?'O
                                            -                  ~
                                                                H       Assistant  Secretary for Administration
                                          -'1-.4J'Es di t#             Washington, D.C. 20230


                                                                       SEP2 8 2004


MEMORANDUM FOR:               Judith J. Gordon
                              Assistant Inspector G'neral for Systems Evaluation
                                Office of Inspe~ &emera

FROM:	                        Otto J. Wolff
                              Chief Financial\OfJ
                                Assistant Sec

SUBJECT:	                     Information Securif\.inVnformation Technology Service
                              Contracts is Improvin}:lbut Additional Efforts are Needed
                              - Draft Inspection Report No. OSE-16513

This memorandum supplements our July 12, 2004 response to the findings and
recommendations in your draft report, on information security in the Department of
Commerce's (DOC) information technology (IT) service contracts. Specifically this
memorandum provides additional infonnation to support our response to
Recommendation No.2 - Implement procedures to strengthen communication between the
Contracting Officer (CO), Contracting Officer Technical Representative (COTR), and
Information Security staff.

We concur with the recommendation. The Department's Procurement Executive, in
coordination with the Office of the Chief Information Officer (OCIO) and program
officials, will work to ensure that communication is strengthened and that adequate
controls are in place to ensure that IT Security is considered during the pre-solicitation,
award and post award phases of the acquisition process. Procurement Executive staff
will collaborate with the OCIO and the Office of General Counsel (OGC) to ensure that
IT Security contract requirements are adequately incorporated into existing contract
review processes, the IT Security Compliance Review Program, and existing contract
compliance and management processes. The Procurement Executive staff is currently
working with the OCIO to incorporate a review of service contracts in the FY 04 IT
Security Compliance Review Program. A random sample of contracts will be reviewed
to determine whether or not Contracting Offices have modified applicable contracts to
include the mandatory IT Security contract clauses. The Procurement Executive and the
OCIO will continue to work together to determine additional ways to partner to address
the IT Security recommendations of the Office of Inspector General.

The Procurement Executive staffwill issue guidance that outlines the IT Security contract
requirements throughout the various phases of the acquisition process and will ensure that
such requirements are incorporated into the CO/COTR IT Security Training module that
    is currently being developed. Substantial coordination with the OCIO, the OGe and the
.   DOC AcquisitionOfficeswill be requiredto completeRecommendationNo.2. It is
    anticipated that guidance will be issued by March 31, 2005.

    We appreciate the opportunity to supplement our July 12, 2004 response to the draft
    report, and we look forward to receiving a copy of the final report. If you have questions
    or would like to discuss the responses in this memorandum, please contact
    Michael S. Sade at (202) 482-4248.
